I
APPENDIX
Certificate of Service

1

Exhibit Al-5 — US 6th Circuit Court of Appeal Order/Decision

2-6

Exhibit B1-6 - US District Court Opinions/Order

7-12

Exhibits Cl-5 — Emergency motion for restraining order

13-17

Exhibit Dl-2 — Ex parte Order 5/18/18 denying parental rights

18-19

Exhibit El-2 - IHO order denying motion to dismiss due process

20-21

Exhibit FI-4 - Student’s Gifted Identification Document

22-25

Exhibit G - Mrs. Trinetti’s first email on 08/30/2017 (hiding)

26

Exhibit H — Mrs. Trinetti’s email on 09/05/2017 (segregated/crying)

27

Exhibit I — Mrs. Trinetti’s email on 11/09/2017 (segregated again)

28

Exhibit Jl-2 — Father’s email requesting transfer to another teacher

29-30

Exhibit K - Mr. Conner’s email 1/18/18 (no emotional disturbance)

31

Exhibit L1 -4 — Excerpts from Shared Parenting Plan of 03/15/2013

32-35

Exhibit M — Docket shows mother filed custody on 02/01/2018

36

Exhibit Nl-27 - Emails with School shows “stay put’Vother issues

37-63

Exhibit 01-6 - Motion to vacate ex parte order

64-69

Pl-4 and Ql-3 - Motion for reconsideration of motion to vacate/Docket
70-76
showing 4* Affidavit of Disqualification of Judge Stucki

2
Case: 19-3574

Document: 20-1

Filed: 04/21/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Cleric

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: April 21,2020

Mr. Okwudili Francis Chukwuani
7309 Winchester Drive
Solon, OH 44139
Ms. Sara Ravas Cooper
Ms. Maria Pearlmutter
Ms. Kathryn I. Perrico
Walter Haverfield
1301 E. Ninth Street
Suite 3500
Cleveland, OH 44114
Re: Case No. 19-3574, Okwudili Chukwuani v. Solon City School District
Originating Case No.: l:19-cv-00492
Dear Mr. Chukwuani and Counsel,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Sharday S. Swain
Case Manager
Direct Dial No. 513-564-7027
cc: Ms. Sandy Opacich
Enclosure
Mandate to issue

EXHIBIT
hi

(1 of 5)

Case: 19-3574

Document: 20-2

I Filed: 04/21/2020

Page: 1

(2 of 5)

NOT RECOMMENDED FOR PUBLICATION
No. 19-3574
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
OKWUDILI FRANCIS CHUKWUANI, M.D.,
Plaintiff-Appellant,

)
)
)

)
)
)
)

v.
SOLON CITY SCHOOL DISTRICT,

FILED
Apr 21, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE NORTHERN DISTRICT OF
OHIO

)
)
)

Defendant-Appellee.

ORDER

Before: NORRIS, SUTTON, and BUSH, Circuit Judges.

Okwudili Francis Chukwuani, M.D., an Ohio resident proceeding pro se, appeals the
district court’s judgment dismissing his complaint brought under the Individuals with Disabilities
Education Act (“IDEA”), 20 U.S.C. §§ 1400, et seq., pursuant to Rules 12(b)(1) and 12(b)(6) of
the Federal Rules of Civil Procedure. This case has been referred to a panel of the court that, upon
examination, unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
During the 2017-2018 school year, Chukwuani’s son, U.C., was a second grader at
Parkside Elementary School in Solon, Ohio.

Throughout the school year, U.C. exhibited

aggressive behavior towards other students and adults that required repeated intervention.
Ultimately, with U.C.’s mother’s involvement and consent, Defendant Solon City School District
(“District”) evaluated U.C. and determined that he has an emotional disability, thus qualifying him
for special-education services. The District, at its own expense, placed U.C. in a special-education
school.

exhibit

VCase: 19-3574

Document: 20-2

Filed: 04/21/2020

Page: 2

No. 19-3574
-2Chukwuani, who was engaged in a custody dispute with U.C.’s mother, was displeased
with the District’s evaluation of U.C. In April 2018, he filed a due-process complaint with the
Ohio Department of Education, alleging that the District had inappropriately identified U.C. as a
child with a disability. See 20 U.S.C. § 1415(b)(6). Following an administrative hearing on the
matter, see id. § 1415(f), the hearing officer determined that Chukwuani had failed to meet his
burden of proving that U.C. was inappropriately identified as a child with a disability. Chukwuani
appealed, see id. § 1415(g), but the State Level Review Officer affirmed the state hearing officer’s
decision.
On May 18, 2018—while Chukwuani’s administrative proceedings were pending—the
Cuyahoga County Court of Common Pleas, Domestic Relations Division (“Domestic Relations
Court”) granted U.C.’s mother exclusive educational authority over U.C. during the pendency of
her custody dispute with Chukwuani in an ex parte order. After unsuccessfully moving to vacate
that order, Chukwuani moved the Domestic Relations Court to reconsider its denial of his motion
to vacate. A magistrate denied Chukwuani’s reconsideration motion following a hearing on the
matter, and the Domestic Relations Court judge approved and adopted the magistrate’s decision.
In March 2019, Chukwuani filed this federal lawsuit on U.C.’s behalf, seeking to challenge
the final administrative determination. See 20 U.S.C. § 1415(i)(2)(A). He alleged that the state
administrative proceedings were procedurally defective, and that U.C. does not have a disability.
The District moved to dismiss the complaint for lack of subject-matter jurisdiction under Rule
12(b)(1), arguing that Chukwuani lacked standing to assert IDEA claims on U.C.’s behalf. The
district court granted the District’s motion to dismiss under Rules 12(b)(1) and 12(b)(6), agreeing
that Chukwuani lacked standing to assert IDEA claims on behalf of U.C. The district court further
concluded that Chukwuani could not assert his IDEA claims on his own behalf because those
claims fell outside the right of action granted by the IDEA.
On appeal, Chukwuani challenges the district court’s dismissal of his complaint.
The district court properly determined that Chukwuani lacked standing to sue on U.C.’s
behalf. Statute 28 U.S.C. § 1654 provides that “[i]n all courts of the United States the parties may
plead and conduct their own cases personally or by counsel.” But it is well-established that

EXHIBIT
A2

\__

(3 of 5)

r
Case: 19-3574

Document: 20-2

Filed: 04/21/2020

Page: 3

(4 of 5)

No. 19-3574
-3“plaintiffs in federal court may not ‘appear pro se where interests other than their own are at
stake,’” Olagues v. Timken, 908 F.3d 200, 203 (6th Cir. 2018) (quoting Shepard v. Wellman, 313
F.3d 963, 970 (6th Cir. 2002)). Consistent with other circuits, “we have consistently interpreted
§ 1654 as prohibiting pro se litigants from trying to assert the rights of others.” Id. (collecting
cases). This includes prohibiting parents from appearing pro se on behalf of their minor child.
Sheperd, 313 F.3d at 970-71 (citing Cheung v. Youth Orchestra Found, ofBuffalo, Inc., 906 F.2d
59, 61 (2d Cir. 1990)). Indeed, we have explicitly held that non-lawyer parents may not represent
their child in an action brought under the IDEA. Cavanaugh ex rel. Cavanaugh v. Cardinal Local
Sch. Dist., 409 F.3d 753, 756 (6th Cir. 2005), abrogated on other grounds by Winkelman ex rel.
Winkelman v. Parma City Sch. Dist., 550 U.S. 516 (2007).
The district corut also determined that Chukwuani was unable to assert his IDEA claims
on his own behalf. The Supreme Court has held that “[p]arents enjoy rights under IDEA; and they
are, as a result, entitled to prosecute IDEA claims on their own behalf.” Winkelman, 550 U.S. at
535. The IDEA authorizes only “parents” to sue, see §§ 1415(f)(1)(A), (i)(2)(A), and the statute
defines the term “parent,” in part, as “a natural, adoptive, or foster parent of a child,” 20 U.S.C.
§ 1401(23). But the Department of Education enacted the following regulation pursuant to the
IDEA:
(b)(1) Except as provided in paragraph (b)(2) of this section, the biological or
adoptive parent, when attempting to act as the parent under this part and when more
than one party is qualified under paragraph (a) of this section to act as a parent,
must be presumed to be the parent for purposes of this section unless the biological
or adoptive parent does not have legal authority to make educational decisions for
the child.
(2) If a judicial decree or order identifies a specific person or persons under
paragraphs (a)(1) through (4) of this section to act as the “parent” of a child
or to make educational decisions on behalf of a child, then such person or
persons shall be determined to be the “parent” for purposes of this section.
34 C.F.R. § 300.30(b) (emphasis added). Accordingly, where a plaintiff who otherwise satisfies
§ 1401(23)’s definition of “parent” “does not have the authority to make educational decisions on
behalf of [a child],” that plaintiff cannot bring a claim under the IDEA. Fuentes v. Bd. ofEduc. of

EXHIBIT
K

b
Case: 19-3574

Document: 20-2

Filed: 04/21/2020

Page: 4

No. 19-3574
-4-

N.Y., 569 F.3d 46, 47 (2d Cir. 2009) (per curiam) (alteration in original) (quoting Taylor v. Vt.
Dep’t ofEduc., 313 F.3d 768, 782 (2d Cir. 2002)); see also Driessen v. Lockman, 518 F. App’x
809, 812 (11th Cir. 2013) (per curiam).
As noted above, the Domestic Relations Court issued an order in May 2018 granting U.C.’s
mother exclusive educational authority over U.C. Chukwuani’s subsequent attempts to vacate that
order were unsuccessful. It is undisputed that Chukwuani lacked educational authority over U.C.
when he filed his federal complaint in March 2019, and nothing in the record suggests that
Chukwuani ever reacquired such authority during the pendency of this lawsuit. Considering the
foregoing, the district court properly determined that Chukwuani could not assert IDEA claims on
his own behalf. See Fuentes, 569 F.3d at 47; see also Driessen, 518 F. App’x at 812.
Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

7
Case: l:19-cv-00492-JG Doc#: 21 *SEALED* Filed: 05/13/19 lot6. PagelD#:575

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO

OKWUDILI CHUKWUANI,

CASE NO. 1:19-CV-492

Plaintiff,
OPINION & ORDER
[Resolving Doc. 8]

vs.
SOLON CITY SCHOOL DISTRICT,
Defendant.

JAMES S. GWIN, UNITED STATES DISTRICT JUDGE:
Pro se Plaintiff Okwudili Chukwuani brings this action under the Individuals with
Disabilities Education Act ("IDEA") challenging Defendant Solon School District's (the
"District") decision classifying his child as disabled. He alleges that the due process
hearing reviewing his child's placement was procedurally defective and substantively
wrong.
Defendant moves to dismiss for lack of jurisdiction and for failure to state a claim,
arguing that Plaintiff lacks standing. 1
Because Plaintiff lacks standing to bring these claims, the Court GRANTS
Defendant's motion to dismiss.

Doc.8. Plaintiff opposes. Doc.14. Defendant replies. Doc. 17.

s
Case: l:19-cv-00492-JG Doc #: 21 *SEALED* Filed: 05/13/19 2 of 6. PagelD#:576
Case No. 1:19-cv-492
Gwin, J.

i. Background
During the 2017-18 school year, Plaintiff's son U.C. was a second grader in a Solon
District elementary school.2 U.C. began to exhibit aggressive and violent behavior towards
other students and adults that required repeated intervention.
After various measures failed to alleviate these behavioral problems, the District—
with the consent of U.C.'s mother3—evaluated U.C. and determined that he qualified for
special education. The District, at its own expense, placed him in a special education
school and put him in a program designed to help him control impulsive behaviors.4
Plaintiff, who is engaged in an ongoing custody dispute with U.C.'s mother,
disapproved of his son's classification. He filed a due process complaint with the Ohio
Department of Education on April 23, 2018, disputing U.C.'s special education
placement.5 After a September 27, 2018 hearing, the state hearing officer overruled
Plaintiff's objection.6 On January 18, 2019, a State Level Review Officer upheld the
hearing officer's decision.7
While Plaintiff's administrative challenge to U.C.'s classification was pending, the
domestic relations court overseeing the couple's custody dispute made a December 21,

2 Doc. 8-1 at 76. These facts are drawn from proceedings in the Cuyahoga Court of Common Pleas, Division
of Domestic relations. When a defendant makes a factual standing challenge, a court has broad discretion to
consider materials outside the complaint. See Cartwright v. Garner, 751 F.3d 752, 759 (6th Cir. 2014).
Further, a court ruling on a motion to dismiss for failure to state a claim may take judicial notice of records
that are generally known within the trial court's territorial jurisdiction and are not subject to reasonable
dispute, such as court documents. See In re Omnicare, inc. Sec. Litig., 769 F.3d 455, 466 (6th Cir. 2014).
3 Doc. 8-1 at 283.
4 Doc. 8-1 at 164.

5 Doc. 8-7 at 3.
6 Id. at 12.
7 Doc. 8-8 at 4.

-2-

EXHIBIT
12=

7
Case: l:19-cv-00492-JG Doc #: 21 *SEALED* Filed: 05/13/19 3 of 6. PagelD #: 577
Case No. 1:19-cv-492
Gwin, J.
2018, ruling that gave U.C/s mother sole authority to make U.C/s educational decisions
pending resolution of the custody dispute.'
Plaintiff then brought this suit, seeking judicial review of the State Level Review
Officer's decision.9 Plaintiff alleges that the due process hearing and subsequent review
were procedurally defective, and that his son is not emotionally disturbed.10 Defendant
moves to dismiss the case for lack of standing or, in the alternative, for failure to state a
claim.
li. Discussion
When a defendant makes a Federal Rule of Civil Procedure 12(b)(1) factual standing
challenge,11 a court "has broad discretion with respect to what evidence to consider in
deciding whether subject matter jurisdiction exists, including evidence outside the
pleadings."12 Plaintiff bears the burden of showing that subject-matter jurisdiction exists.13
The school district argues that Plaintiff lacks standing to pursue any claim on behalf
of his minor son because a pro se litigant cannot bring claims on behalf of third parties.
Defendant is correct Under Federal judiciary Act of 1789,14 pro se plaintiffs cannot assert

8 Doc. 8-5 at 2.

9 Doc. 110 Doc. 1 at 1-3. Because, as detailed below, Plaintiff lacks standing to bring these claims, the Court will not
recite the alleged deficiencies in detail.
” Fed. R. Civ. P. 12(b)(1).
12 Cartwright, 751 F.3d at 759.
13 Id.
14 Codified as 28 U.S.C. § 1654 ("In all courts of the United States the parties may plead and conduct their
own cases personally or by counsel as, by the rules of such courts, respectively, are permitted to manage and
conduct causes therein.").

-3-

/ D
Case: l:19-cv-00492-JG Doc #: 21 *SEALED* Filed: 05/13/19 4 of 6. PagelD #: 578
Case No. 1:19-cv-492
Gwin, J.
interests other than their own.15 Thus, pro se parents like Plaintiff cannot make IDEA
claims on behalf of their minor children.16
Although Plaintiff cannot make claims on behalf of his son, he might potentially
have standing to assert his own rights under the IDEA. Construed liberally, his pro se
complaint lays out procedural defects in the due process hearing that resulted in his son's
alleged misclassification. These allegations suggest that the IDEA procedural right
violations harmed his own parental interest having his child receive an appropriate
education. In Winkelman ex reL Winkelman v. Parma City School District, the Supreme
Court held that Plaintiff parents may proceed pro seto vindicate such IDEA rights.17
However, Plaintiff lacks zone-of-interest standing to bring these claims. Article III of
the United States Constitution requires that a federal Plaintiff allege a concrete and
particularized injury-in-fact that is traceable to the Defendant's conduct and is redressable
by a favorable decision.18 In addition to this constitutional standing requirement, the
Supreme Court has also recognized a "prudential" zone-of-interest standing requirement.

15 Shepherd v. Wellman, 313 F.3d 963, 970 (6th Cir. 2002) (federal judiciary act does not authorize "plaintiffs
to appear prose where interests other then their own are at stake" (citing lannaccone v. Law, 142 F.3d 553,
558 (2d Cir. 1998)).
16 See Smith v. Indian Hill Exempted ldll. Sch. Dist., No. 1:10-CV-718, 2011 WL4348101, at *7 (S.D. Ohio
May 5, 2011), report and recommendation adopted, No. 1:10CV718, 2011 WL 4352010 (S.D. Ohio Sept.
16, 2011) ("Nothing in the IDEA suggests a departure from the general rule that prohibits pro se litigants from
litigating the interests of another.").
17 550 U.S. 516, 534 (2007) (holding that prose parent plaintiffs could assert their "independent, enforceable
rights" under the IDEA in federal court). Justice Scalia's concurrence in Winkteman commented that a
parent's interest "in having their child receive an appropriate education" was a concrete (that is, Article III)
interest, and that a pro se parent would have standing to bring an action on their own behalf if the violation
of IDEA procedural rights impaired this interest. See id. at 537 n. 3 (Scalia, J., concurring in the judgment
and dissenting in part).
18 Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992)

-A-

EXHIBIT

a
Case: l:19-cv-00492-JG Doc #: 21 *SEALED* Filed: 05/13/19 5 of 6. PagelD#:579
Case No. 1:19-cv-492
Gwin, J.
Under this rule, a plaintiff must show that they *fallQ within the class of plaintiffs whom
Congress has authorized to sue" under the statute providing the cause of action.19
The IDEA only authorizes "parents" to sue, and Plaintiff is not a "parent" under the
statute. 20 U.S.C. § 1415(f)(1)(A) provides that"parents... shall have an opportunity for
an impartial due process hearing." Section 1415(0(2), in turn, provides that "a party
aggrieved by findings and decision made under subsection (f)... can seek review in
federal court." Read together, these provisions dictate that only a "parent" is a "person
aggrieved" capable of invoking judicial review of due process hearings under the IDEA.
Department of Education IDEA regulations defining "parent" state that when a
judicial decree has designated a specific person to make educational decisions for the
child, that person is the "parent" of the child for IDEA purposes.20 Because the Ohio
domestic relations court determined that U.C.'s mother—not Plaintiff—has the right to
make educational decisions for the child, Plaintiff is not a "parent" under IDEA. Thus, he
lacks zone-of-interest standing.

19 Id. at 127. Because the Supreme Court labeled this requirement as "standing," there is significant
confusion whether a Plaintiff's failure to demonstrate prudential zone-of-interest standing goes to the federal
court's federal jurisdiction or merely constitutes failure to state a claim under the statutory cause of action. In
Bank of Am. Corp. v. City ofMiami, Fla., 137 S. Ct. 1296, 1302 (2017), the Supreme Court suggested that
"prudential standing" was something of a misnomer, because the inquiry was really whether "the statute
grants the plaintiff the cause of action that he asserts." Because Defendant has moved to dismiss for both lack
of subject-matter jurisdiction and failure to state a claim, the Court need not resolve this vexing issue here.
20 34 C.F.R. § 300.30(b)(1M2) ("(b)(1) Except as provided in paragraph (b)(2) of this section, the biological or
adoptive parent, when attempting to act as the parent under this part and when more than one party is
qualified under paragraph (a) of this section to act as a parent, must be presumed to be the parent for
purposes of this section unless the biological or adoptive parent does not have legal authority to make
educational decisions for the child. (2) If a judicial decree or order identifies a specific person or persons ...
to act as the "parent" of a child or to make educational decisions on behalf of a child, then such person or
persons shall be determined to be the 'parent' for purposes of this section.").

-5-

EXHIBIT

12.
Case: l:19-cv-00492-JG Doc #: 21 *SEALED* Filed: 05/13/19 6 of 6. PagelD#:580
Case No. 1:19-cv-492
Gwin, J.

ill.Conclusion
For the foregoing reasons, the Court GRANTS Defendant's motion to dismiss.

IT IS SO ORDERED.

James S. Gwin
s/
JAMES S. GWIN
UNITED STATES DISTRICT JUDGE

Dated: May 13, 2019

-6-

exhibit
&

I 2>
Motion No.

gjilfipa

Cj

*

so

<51

J5»il

§

%™iS5>
NAILAH K. BYRD
CUYAHOGA COUNTY CLERK OF COURTS
1200 Ontario Street
Cleveland, Ohio 44113

Court of Domestic Relations
MOTION FOR TEMPORARY RESTRAINING ORDER
March 27,2018 19:33
By: SARAH THOMAS KOVOOR 0069223
Confirmation Nbr. 1338935

OKWUDILICHUKWUANI

DR 18 371176

vs.

Judge: FRANCINEB. GOLDBERG
VIVIAN CHUKWUANI, ET AL

Pages Filed: 4

exhibit

Electronically Filed 03/27/2018 19:33 / MOTION / DR 18 371176 / Confirmation Nbr. 1338935 / CLMWV

I*

IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
OKWUDILICHUKWUANI,
Plaintiff,
vs.
VIVIAN CHUKWUANI,
Defendant,
and
SOLON CITY SCHOOL DISTRICT
BOARD OF EDUCATION
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

CASE NO.: DR 18-371176
JUDGE FRANCINE GOLDBERG
EMERGENCY MOTION
FOR A TEMPORARY
RESTRAINING ORDER

Plaintiff Okwudili Chukwuani, M.D. (“Father”), pursuant to Rule 75(1), Ohio Rules of
Civil Procedure, moves this Honorable Court for an emergency order temporarily restraining
Defendant Vivian Chukwuani, M.D. (“Mother”) and new-party Defendant Solon City School
District (“Solon”) from taking any actions in furtherance of testing seven year old Usochukwu
Chukwuani (“Son”), the seven year old son of father and mother for disability. Father states that
(I) subject to the terms of the shared parenting plan entered in this case his consent is necessary
for such testing of the son to take place; (2) the decision to pursue the testing of son was made by
Solon without seeking, much less obtaining, the Father’s consent; and (3) such testing is
unnecessary and has the potential to cause the son to suffer mental and psychological injury.

XHIBIT
£ <2-

/.r
An affidavit from the Father is attached hereto which more folly explains the reasons for
this request.
Respectfully submitted,

/s/ SaraJi 'Tfivmas JCovoor
Sarah Thomas Kovoor, Esq. (0069223)
FORD, GOLD, KOVOOR & SIMON, Ltd,
8872 East Market Street
Warren, OH 44484
P: (330) 856-6888 F: (330) 856-7550
Counselfor Plaintiff Okwudili Chukwuani

CERTIFICATE OF SERVICE
A copy of the foregoing Emergency Motion for a Temporary Restraining Order was sent
U.S. Mail on the day this document was filed to;
KEVIN STARRETT, ESQ.
160 East Washington Street
Chagrin Falls, OH 44022
Counselfor Defendant Vivian Chukwuani
And
SOLON CITY SCHOOL DISTRICT
BOARD OF EDUCATION
33800 Inwood Road
Solon, OH 44139

/s/ Sara/i Tlionms JCovoor
Sarah Thomas Kovoor, Esq,
FORD, GOLD, KOVOOR & SIMON, Ltd,
Counselfor Plaintiff Okwudili Chukwuani

/b

IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
OKWUDILICHUKWUANI,
Plaintiff,
vs.

)
)
)
)

CASE NO.:
JUDGE

}

VIVIAN CHUKWUANI,
Defendant,
and
SOLON CITY SCHOOL DISTRICT
BOARD OF EDUCATION
Defendant.
STATE OF OHIO
COUNTY OF TRUMBULL

)
)
)
)
)
)
)
)
)
)

)
)
)

AFFIDAVIT OF
OKWUDILI CHUKWUANI, M.D,

SS

EXHIBIT
<1

Okwudili Chukwuani, M.D., being first duly sworn, deposes and states as follows:
1. I make all of the statements contained in this affidavit based on my own personal
knowledge.
2. I am the father of a seven-year-old Usochukwu Chukwuani (d.o.b. 5/28/10) (“son”). My

son is a student at Parkside Elementary School in Solon, Ohio. Parkside Elementary
School is part of the Solon City School District (“Solon”).
3. In September 2017, my son was identified as a gifted child in the area of creative ability in

a nationwide evaluation of seven-year-old children. I have attached a copy of this
evaluation herein marked as Exhibit A
4. Usochukwu's mother, Vivian Chukwuani, M.D., from whom I am legally separated, has

been unable to provide a disciplined structured home environment for my son, she has

/?
!

agreed with Solon, to place my son in a program that is not in his best interest, by
conducting a test to determine whether he is disabled. Solon failed to realize that lack of a
consistent and appropriate parental care was responsible for my son’s conduct in school.
Solon and Usochukwu’s mother are currently using a plan that has continued to
systematically decondition my son in school in order to generate data in support of their
proposed testing for disability instead of focusing on developing his special talent in
creative ability. The outcome of such testing giving the current setting and presumptions
will be detrimental to my son. Solon did not obtain my consent to test my son for disability.
Solon has not paid attention to my objections to the testing and has continued to use a plan
that systematically deconditions my son in school.
5. To proceed with such a crucial decision relating to my son without my consent, violates
my right as a father to protect my son from harm and provide what is in his best interest; it
also violates the shared parenting agreement between his parents. My son's mother’s
present and past conduct calls her maternal abilities into question and raises serious doubts
about her judgment regarding so important an issue as testing my son for disability.
6. For the reasons, I have stated in this affidavit 1 request that Vivian Chukwuani and Solon
be ordered to stop all efforts to have my son tested for disability.

EXHIBIT

FURTHER AFFIANT SAYETH NAUGHT.
\

'C,A O_-

Okwudili Chukwuani
Signed and sworn to before me on this 12th day of March 2018.

rtJjry Public

SARAH THOMAS KOVACH, Attornay at Lew
Notary Public, State of Ohio
My Ceomtisr.lan Has No expiration Date
Section tit?.03 o.fl.C.

i

.

ORIGINAL

DR11338367

..COURT USE ONLY

103898876

MAY 16 2018
CUYAHOGA COUNTY
CLERK OF COURTS

IN THE COURT OF COMMON PLEAS
DIVISION OF DOMESTIC RELATIONS
CUYAHOGA COUNTY, OHIO
)

VIVIAN CHUKWUANI

CASE NO. DR 11 338367

)
)

Plaintiff,

JUDGE: FRANCINE E. GOLDBERG
Magistrate: Colleen A. Reali

)
)

vs.

)
OKWUDILI CHUKWUANI

JUDGMENT ENTRY

)
)
)

Defendant.

)

This matter came on for hearing upon plaintiff Vivian Chukwuani’s Ex Parte
Motion to Designate Plaintiff as Residential Parent for School Purposes and Grant
Plaintiff Authority to Make School Decision regarding the minor child, Usochukwu, age
7 (d.o.b. 5-28-10) [Motion # HU VSI

)•

Upon due consideration thereof, the Court finds as follows:

X

Plaintiff Vivian Chukwuani’s Ex Parte Motion to Designate Plaintiff as

Residential Parent for School Purposes and Grant Plaintiff Authority to Make School
Decisions regarding the minor child, Usochukwu is well taken.
IT IS THEREFORE ORDERED that plaintiff Vivian Chukwuani is hereby
\

designated the Residential Parent of the minor child, Usochukwu for School Purposes
and further granted the authority to make school decisions including school placement
regarding the minor child, Usochukwu.
IT IS FURTHER ORDERED that the minor child, Usochukwu, age 7 (d.o.b. 5-281

exhibit

~b4

i°t
„ • *

wu ^y&xiPc

10) shall be permitted to complete the school year, 2017-2018 at the Re-Education
Services Center, Bedford, and each party shall cooperate to facilitate Usochukwu’s
attendance at such school through the last day of school on or about May 31,2018.

□

i’s Ex Parte Motion to Designate Plaintiff as .

Plaintiff'Vivian Chul

Residential Parent roc^School Pjitposes and GrantPteimifF Authority to

chool

Decjsitm regarding the minor cftikLUsochuJp^ is not well tam*<and is deniei

This

rss

motion shall set mr full hearing at the convenience of the Court.
This case shall b

■or pretrial

*

IT IS SO ORDERED.
JUDGE FRANCINE E. GOLDBERG
Submitted and Agreed:

REpEIVED FOR FILING

MAY 18 2018
KEVIN L. STARRETT [#0028490]
Attorneyfor Plaintiff Vivian Chukwuani

CUYAHOGA COUNTY
CLgfiK OF COURTS
II
Deputy

7J0
»•

STATE OF OHIO
DEPARTMENT OF EDUCATION
OFFICE FOR EXCEPTIONAL CHILDREN

f

Usochikwu Chvfcwuani, Student and
Dr. Okwudjjli ChulcwuainL, Petitioners
-arfd*

Soton City School District,
Respondent

5

}
}
)
}
>
}
}
}
}

SE-3S9T-20T8

ORDER
Oh May 21,2018, Respondent fifed ''District's Motfen to Dismiss Due Process Complaint
for Lack of Standing',* On May 31,2018, Respondent. by email, sent IHO and Petitioner a copy
of a certified copy of a lodgment Entry from the Court of Common Picas. Division of Domestic
;
Relations, Cuyahoga County. Ohio, dared May 18.2Q18 (Ex Parte Order).. IHO received 8
certified copy of the Judgment Entry on June 4,2.01&
According to proposed exhibits.5 on May 14.2018. ’Father withdrew his consmi For
Student's placement at the Re-Education Services Center.” {Resp. proposed Ex. 58, p. 503,
»
emphasis added}- Father, in an email to IHO and the parties, on May 13,2018, indicated that he
was cevofdng “the- consent for special education for my son and request that he be reinstated at
Pnrk&kfe Efemerctary School with immediate effect* {Resp. proposed Ex. S8. p. 534}. Mother
argued thafi’sueh Ex-Parte Order will ngt operate- to prejudice Father rather it will simply maintain
the status qyo * |Resp. proposed Ex. 58, p. 504J.
i
In tires matter. Petitionees have argued teat there is a shared parenting agreement, and
*.
teat Mothecegreed to an out-of-district placement wiihaut tee consent o* Petitioner Dr.
Chukvyuani, Such placement oocutred during the pendency of this proceeding, which was feed
■

:
l
?

t

11HO refers; to PROPOSED, uncertified exhibits, only to explain the context of denyteg (he Motion
to Dismiss, land not as facts fn this matter.

Xf
l

2-1
i

on April 23; 2Q1&-* Then, Father revoked consent before May 18, 2010, Out, Petitioners argue,
Student continued to be placed at the out-of-district facility.
The May 18,2018 Ex Parte Order states, in past
f

IT |$ THEREFORE ORDERED that plaintiff Vivian Gbukwuani is hereby designated the
Ressdentiaf Parent of the nrunor child, Usocfrukwu for School Purposes arid further
granted the authority to mate school decisions including school: placement regarding the
minor child. Usochukwu. IT IS FURTHER ORDERED that the mirier child....shall Do
permitted to complete the school year. 2017-2018 at the Re-Education Services Center,
Bedford, and each party shall cooperate ® facilitate Usochukwu's attendance ai such
school through the last day of school on or about May 31,2018.
{emphasis added).
A copy of a shared parenting agreement was provided to (HQ and Respondent on ?fey 2,
i
2018, at 1:44 FM, by ernsai, by Petntoner. Such agreement provides: “Mother and Father agree
?

that atl provisions relating to their minor chfetren’s education shall remain modifiable, by an Order
t

of the Cuyahoga County Domestic Relations Court, or written agreement of the parties{iV,D. )s
!
Respondent is essentially arguing that Petitioner. Dr. Cimkv/uanL, is not an appropriate
*
party to this action (that he lacks standing} because he is not, as of May 18.2018, the
i.

■Residential Par&nf with authority to deefcie where Student should attend school Missing from
Respondent's argument is an indication, based upon information before this IHO at the present
time, that Mother exercised her authority, after May 1B, 2018 as ‘Residential Parent* so have
Student placed at an out-of-district facility, or a clear Indication tost toe Ex Parte Order
contemplates teat the Mother te toe sole decision making authority regarding education,
issues of stay put may be pact of toe issues to this case, based upon the issues
discussed atthe-Disctosure Conference, especially if Respondent is arguing that it was father
who originally requested Student's placement at an out-of-district facility. it appears from the
ailegattonsin toe Complaint that Father had authority to make educational decisions fcf Student
unto at teas! May 18,2818, and may still have some authority to that regard. Therefore.
Respondent's Motion to Dismiss is DENIED.
2 Ms. Pefrico, attorney for Respondent, at the Disclosure Conference, rtesed an issue regarding
the filing date of this matter, which ts an issue yet to be reserved for the due process. IHO has
used She filing date referenced by the Ohio Department of Education in its appointment tetter,
dated April 23,2018.
* Again, this document has not heart admitted by this IHO in tote proceeding.
i
s

?
i

exhibit
'£Z 2-

Additional material
from this filing is
available in the
Clerk's Office.

